<html>
<title> - VARIOUS BILLS AND RESOLUTIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                     VARIOUS BILLS AND RESOLUTIONS

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

            H.R. 4405, H. Res. 506, H.R. 4141, H. Res. 526, 
                      H. Res. 583 and H. Res. 663

                               __________

                              JUNE 7, 2012

                               __________

                           Serial No. 112-175

                               __________

        Printed for the use of the Committee on Foreign Affairs









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-638 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           DENNIS CARDOZA, California
MICHAEL T. McCAUL, Texas             BEN CHANDLER, Kentucky
TED POE, Texas                       BRIAN HIGGINS, New York
GUS M. BILIRAKIS, Florida            ALLYSON SCHWARTZ, Pennsylvania
JEAN SCHMIDT, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
BILL JOHNSON, Ohio                   FREDERICA WILSON, Florida
DAVID RIVERA, Florida                KAREN BASS, California
MIKE KELLY, Pennsylvania             WILLIAM KEATING, Massachusetts
TIM GRIFFIN, Arkansas                DAVID CICILLINE, Rhode Island
TOM MARINO, Pennsylvania             
JEFF DUNCAN, South Carolina          
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director





                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 4405, To impose sanctions on persons responsible for the 
  detention, abuse, or death of Sergei Magnitsky, and for other 
  gross violations of human rights in Russian Federation, and for 
  other purposes.................................................     2
  Amendment in the nature of a substitute to H.R. 4405 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida, and chairman, Committee 
    on Foreign Affairs...........................................    19
H. Res. 506, Calling upon the Government of Turkey to facilitate 
  the reopening of the Ecumenical Patriarchate's Theological 
  School of Halki without condition or further delay.............    36
H.R. 4141, To direct the Administrator of the United States 
  Agency for International Development to take appropriate 
  actions to improve the nutritional quality, quality control, 
  and cost effectiveness of United States food assistance, and 
  for other purposes.............................................    41
  Amendment in the nature of a substitute to H.R. 4141 offered by 
    the Honorable Ileana Ros-Lehtinen............................    51
H. Res. 583, Expressing support for robust efforts by the United 
  States to see Joseph Kony, the leader of the Lord's Resistance 
  Army, and his top commanders brought to justice and the group's 
  atrocities permanently ended...................................    61
  Amendment to H. Res. 583 offered by the Honorable Ileana Ros-
    Lehtinen.....................................................    68
H. Res. 663, Expressing support for the International Olympic 
  Committee to recognize with a minute of silence at every future 
  Olympics Opening Ceremony those who lost their lives at the 
  1972 Munich Olympics, and for other purposes...................    69
  Amendment in the nature of a substitute to H. Res. 663 offered 
    by the Honorable Ileana Ros-Lehtinen.........................    72
H. Res. 526, Expressing the sense of the House of Representatives 
  with respect toward the establishment of a democratic and 
  prosperous Republic of Georgia and the establishment of a 
  peaceful and just resolution to the conflict with Georgia's 
  internationally recognized borders.............................    75
  Amendment in the nature of a substitute to H. Res. 526 offered 
    by the Honorable Ileana Ros-Lehtinen.........................    83

                                APPENDIX

Markup notice....................................................   102
Markup minutes...................................................   103
Prepared statements of:
  The Honorable Ileana Ros-Lehtinen..............................   105
  The Honorable Gregory W. Meeks, a Representative in Congress 
    from the State of New York...................................   113
  The Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................   121
  The Honorable Russ Carnahan, a Representative in Congress from 
    the State of Missouri........................................   128
  The Honorable Dan Burton, a Representative in Congress from the 
    State of Indiana.............................................   129
  The Honorable Gerald E. Connolly, a Representative in Congress 
    from the Commonwealth of Virginia............................   130
  The Honorable Joe Wilson, a Representative in Congress from the 
    State of South Carolina......................................   132
  The Honorable Allyson Schwartz, a Representative in Congress 
    from the Commonwealth of Pennsylvania........................   133
  The Honorable Gus Bilirakis, a Representative in Congress from 
    the State of Florida.........................................   134

 
                     VARIOUS BILLS AND RESOLUTIONS

                              ----------                              


                         THURSDAY, JUNE 7, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2200 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
Pursuant to notice, the committee meets today to markup several 
bipartisan measures. Without objection, all members may have 5 
days to insert written remarks into the record on any of 
today's measures or amendments. According to the expedited 
procedures shared with members earlier this week, we will 
consider and approve all the measures en bloc. Afterwards, I 
will recognize myself, the ranking member, Ms. Schmidt, any 
other members seeking recognition for remarks.
    All of these items are in the packets in front of members, 
were provided to your offices, and posted online earlier this 
week. And so, without objection, the following measures are 
considered as read and will be considered en bloc.
    H.R. 4405, the Sergei Magnitsky Rule of Law Accountability 
Act of 2012, and the bipartisan substitute amendment offered by 
the Chair.
    H. Res. 506, calling upon the Government of Turkey to 
facilitate the opening of the Ecumenical Patriarchate's 
Theological School of Halki.
    H.R. 4141, the Donald M. Payne International Food 
Assistance Improvement Act of 2012, and the bipartisan 
substitute amendment offered by the Chair.
    H. Res. 583, expressing support for robust efforts by the 
United States to see Joseph Kony, the leader of the Lord's 
Resistance Army, and his top commanders brought to justice, and 
the bipartisan amendment to H. Res. 583 offered by the Chair.
    H. Res. 663, expressing support for the International 
Olympic Committee to recognize a minute of silence for those 
who lost their lives at the 1972 Munich Olympics, and the 
bipartisan substitute amendment offered by the Chair.
    And H. Res. 526, expressing the sense of the House of 
Representatives with respect to the establishment of a 
democratic and prosperous Republic of Georgia, and the 
bipartisan amendment substitute offered by the Chair.
    [The bills and amendments referred to follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Ros-Lehtinen. The Chair moves that the measures 
just listed be adopted by the committee. All those in favor say 
aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
measures and the amendments considered en bloc are approved. 
Without objection, each of those underlined measures, as 
amended, is ordered favorably reported as a single amendment in 
the nature of a substitute. Staff is directed to make technical 
and conforming changes, and the Chair is authorized to seek 
consideration under suspension of the rules.
    Having concluded the operative part of today's business, I 
will now recognize members who wish to make statements on the 
adopted measures, beginning with myself and the ranking member. 
Then we will go to Ms. Schmidt and anyone else seeking 
recognition.
    I want to thank the ranking member, all of our committee 
members and our staff for the good work that went into the 
measures we have just adopted. Whether it be the desire for 
accountability in the death of Sergei Magnitsky, the right of 
Ecumenical Patriarchate to reopen its Halki Seminar, ending the 
murderous rampage of Joseph Kony, commemorating the Israeli 
Olympians murdered 40 years ago in Munich, or expressing our 
hopes for the security and prosperity of a democratic Georgia, 
I am proud of this committee's ability to speak with one voice 
on these timely issues of shared concern.
    With that, I will place my remarks on these measures into 
the record, and recognize the ranking member for any remarks 
that he may have. Mr. Berman is recognized.
    Mr. Berman. Well, thank you very much, Madam Chairman, both 
for recognizing me but also for working with us in the minority 
and your staff and ours on all the items in this markup, 
including several Democratic measures. I support all of the 
bills and resolutions that we are taking up today.
    The Sergei Magnitsky Rule of Law Accountability Act of 2012 
is a very important piece of legislation. Later this year, 
Congress may consider lifting the Jackson-Vanik provisions 
concerning immigration from Russia, and granting Russia 
permanent normal trade relations. But if we are to consider 
such changes to our trade law, it should be done in conjunction 
with legislation to address serious human rights violations in 
Russia. In addition to Sergei's tragic death, we are deeply 
concerned about the range of human rights violations including 
extrajudicial killings, the serious irregularities in recent 
elections, and legislation elected by several city councils, 
including St. Petersburg, to constrict the ability of Russia's 
LGBT community to exercise their rights of expression, 
association, and assembly.
    This substitute differs from the original in that it only 
sanctions human rights violators in Russia. My preference is 
worldwide application of these provisions as opposed to 
singling out one specific country, which is consistent with 
steps already taken by the Obama administration to deny visas 
to human rights violators and to curb corruption by foreign 
government officials. As this legislation moves forward, I hope 
we will reexamine the issue of whether or not to take a more 
expansive approach to human rights violators and those that 
facilitate financial corruption.
    I also want to commend Mr. Bilirakis for his very important 
resolution, H. Res. 506, Calling upon the Government of Turkey 
to facilitate the reopening of the Ecumenical Patriarchate's 
Theological School of Halki without condition or further delay. 
The Ecumenical Patriarchate has numerous fully legitimate 
concerns about the unjust treatment the Turkish Government has 
accorded it over the years, including policies that have 
threatened the very existence of the Patriarchate. And those of 
us who have been seized with those concerns for some time 
remain fully committed to them. But the message of this 
resolution, which I strongly support, is very specific--simple 
but powerful--and directed toward the Turkish Government. 
Reopen the Halki Seminary!
    The Halki Seminary, located on an island near Istanbul, was 
the preeminent seminary of the Greek Orthodox world until 
Turkey closed it in 1971. For the past 41 years, its 
classrooms--which produced the top theologians of the Greek 
Orthodox world--have been silent. This balanced resolution 
notes some positive gestures by the Turkish Government in 
recent years, including the return of some church property and 
the unprecedented meeting of the Turkish Prime Minister with 
Ecumenical Patriarch Bartholomew. But a flourishing Halki 
Seminary would be a true sign that Turkey is serious about 
moving toward religious freedom and fully joining the family of 
democratic nations. I call on the Turkish Government to reopen 
Halki without any further delay.
    H.R. 4141, the Donald Payne International Food Assistance 
Act of 2012, honors and builds on the tireless efforts of our 
late colleague to protect the world's most vulnerable 
populations. With Don's untimely passing we not only lost a 
dear friend and respected colleague, but a wise and determined 
champion for those who live in chronically food insecure 
environments. All too often, the food rations designed to 
address short-term crises end up being relied upon for 
multiyear feeding programs, but they are unsuited to provide 
adequate nutrition over longer periods of time.
    With H. Res. 583, introduced by Mr. McGovern, this 
committee reiterates its condemnation of Joseph Kony and the 
Lord's Resistance Army, which continues to terrorize 
communities in Central Africa. The resolution underscores our 
support for U.S. and international efforts to stop the LRA and 
bring Joseph Kony to justice. It emphasizes the importance of 
regional cooperation, local capacity building, and civilian 
protection and recovery programs, which will be necessary even 
after Kony and his allies are removed from the battlefield.
    And H. Res. 526 offered by Mr. Shuster is a strong 
statement in support of Georgia's progress on democratic 
reforms, its territorial integrity and Euro-Atlantic 
aspirations. It recognizes the reforms since the 2003 Rose 
Revolution, calls on the Government of Georgia to continue this 
progress so that we can strengthen our partnership and expand 
our bilateral relationships. A critical measure of this 
progress will be the upcoming parliamentary and presidential 
elections. I am concerned by efforts to prevent a prominent 
political opponent from running in the parliamentary election 
and reported attempts to intimidate local opposition leaders 
including denying them access to media. We will watch this 
process closely.
    And I am almost done. I want to thank my friend from New 
York, Mr. Engel, for introducing H. Res. 663. This resolution 
encourages the International Olympic Committee to hold a minute 
of silence during the upcoming London Olympics to commemorate 
the 40th anniversary of the 1970 Munich Olympics terrorist 
attack in which 11 Israeli Olympians, including a dual U.S.-
Israeli national lost their lives. The 40th anniversary year of 
that tragedy is an appropriate time to honor those lost that 
day, and a moment of silence at all future Olympics will remind 
the victims' families and friends that the international 
community has not forgotten their loved ones.
    Thank you very much, Madam Chairman. I look forward to 
working with you at our next markup on the state authorization 
legislation.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman, for 
your excellent statement. Ms. Schmidt is recognized for 5 
minutes.
    Ms. Schmidt. Thank you, Madam Chair, and thank you for 
today's markup. Balancing religious concerns is a delicate 
dance and we recognize that this, I believe, is Hellenic Week 
and brings to light concerns that the Greek community may have. 
And one of those is the issue of the Halki Seminary. And I do 
believe that it should be reopened, and I understand that the 
Turkish Government is committed toward that.
    But I do want to bring to light some of the concerns that 
the Turkish Embassy shared with me regarding Mr. Bilirakis' 
resolution. And I am going to read what they said.

          ``Turkey is committed to finding a viable solution to 
        reopen the Halki Seminary and to overcome the remaining 
        restrictions which apply to all religious communities. 
        However, the actions of the House of Representatives on 
        these issues are neither necessary nor productive. On 
        the contrary, such action risks backfiring and 
        undermining political-mentum obtained.
          ``Turkey fully understands the needs of the Greek 
        Orthodox minority to train its clergy. However, the 
        difficulty is not related to the status of the 
        Patriarchate. Turkey, by its virtue of its 
        constitution, is a secular state. Thus, in line with 
        the Turkish constitution and the principles of 
        secularism, which constitutes a fundamental tenet of 
        Turkish democracy, religious instruction is placed 
        under the supervision of the State. It is with this 
        understanding that Turkey is exploring a viable 
        solution to reopen the Halki Seminary and to overcome 
        the legal restrictions.
          ``H. Res. 506 is outdated and it omits the recent 
        historic steps taken by Turkey as such, the return of 
        all immoveable properties to non-Muslim community 
        foundations. The perennial singling out of Turkey on 
        such issues is both unwarranted and discriminatory. As 
        acknowledged by the State Department, religious 
        freedoms have steadily improved in Turkey. The HFAC 
        markup will invariably turn into a Turkish bashing 
        session. This will be very unfortunate, especially 
        during Secretary Clinton's visit to Turkey and the run 
        up of the annual ATC Conference.''

    By the way, we understand that the resolution is in place 
for reasons that are apparent. Turkey is always sensitive to 
the tone, content in general, atmospheres of such congressional 
action, and moreover it is a secular democracy, and it is more 
than ironic that Turkey is a country of setting of a positive 
example in this region, and they believe that, they are fearing 
that they are being singled out by this Congress.
    I bring this to light because I have had groups come to me 
regarding this resolution, and while I believe that the Halki 
Seminary needs to be open, I just wanted to share what the 
Turkish Embassy's concerns are during this resolution. And I 
yield back my time.
    Chairman Ros-Lehtinen. Thank you very much, Ms. Schmidt. 
Mr. Connolly is recognized for 5 minutes.
    Mr. Connolly. Thank you, Madam Chairman. And I wish to 
associate myself, particularly with the remarks and all of the 
resolutions we have marked up today, with the ranking member, 
Mr. Berman.
    As the co-chair of the Turkey caucus, I want to express my 
strong support for House Resolution 506. I think it actually is 
something that ought to be welcomed by all of us who are 
friends of Turkey and support Turkey, and I want to quote what 
President Obama said at the Grand National Assembly of Turkey 
in 2009. He said, ``Freedom of religion and expression lead to 
a strong and vibrant civil society that only strengthens the 
State,'' which is why steps like reopening the Halki Seminary 
will send such an important signal inside Turkey and beyond.
    I believe the resolution is balanced. It recognizes strides 
that the Turkish Government has made with respect to the 
Ecumenical Patriarchate, and to broaden religious freedoms and 
respect for the diversity of religious expression. For example, 
the resolution welcomes the historic meeting between the Prime 
Minister and the Ecumenical Patriarchate. It welcomes the 
positive gestures of the Government of Turkey allowing 
liturgical celebration by that Patriarchate at the historic 
Sumela Monastery and the return of the former Greek Orphanage 
of Buyukada Island to the Ecumenical Patriarchate. It urges the 
Government of Turkey to facilitate the opening of the 
Ecumenical Patriarchate's Theological School without delay, 
which I support, and urges the Government of Turkey to address 
other long-standing concerns relating to the Ecumenical 
Patriarchate.
    I believe Turkey is a vibrant, secular society. It is a 
society striving to make sure that it respects religious 
diversity, and I think this resolution is intended to be 
supportive of those efforts, not even inferentially necessarily 
critical of the Government of Turkey, and as such I welcome the 
resolution and glad to support it.
    With that I yield back. Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. I thank the gentleman. Judge Poe is 
recognized for 5 minutes.
    Mr. Poe. I thank the chair for the time. I want to make two 
comments, one about the resolution in Turkey. Turkey has done a 
remarkable job in moving forward for religious freedom 
especially in the area of being open to more religious freedom. 
However, I do think the proof is in the pudding in this 
specific case, and it would be a great step forward to show the 
world that if the Halki Seminary was reopened that they are 
serious about religious freedom. Then to Turkey, have a lot of 
friends both in the United States and abroad that are of 
Turkish heritage, and so I commend them on their efforts. Let 
us hope that the seminary can be opened as soon as possible and 
to show that Orthodox Christians in Turkey have religious 
freedom just like other folks have religious freedom.
    On the issue of Georgia, Georgia seems to be one of those 
countries where the world is not paying any attention to what 
took place or is taking place. The Russians decided they wanted 
to invade Georgia and so they did. They went in, and in a few 
days they took over one-third of the sovereign territory of 
Georgia. The world made some political statements, especially 
the Europeans. The Russians ceased on their aggression, stopped 
after they took over two territories, or one-third of the 
sovereign territory of Georgia, and the world has moved on.
    The Russians still occupy a foreign land. They occupy the 
sovereign nation of Georgia. This resolution, I think, is good 
to promote the awareness of what took place and what is taking 
place in Georgia. It is a democracy like all democracies. The 
United States doesn't necessarily agree with everything taking 
place but we do believe, and I do believe, we should support 
their strong effort to be a democratic state, a state of 
freedom and liberty, and eventually the world is going to have 
to make a decision about where we stand on the issue of the 
Russians still occupying one-third of the sovereign territory 
of a nation that is our friend.
    And with that, Madam Chair, I will yield back.
    Chairman Ros-Lehtinen. That is just the way it is. Thank 
you, sir.
    Mr. Poe. Just the way it is.
    Chairman Ros-Lehtinen. Mr. Sires of New Jersey is 
recognized.
    Mr. Sires. Thank you, Madam Chair, and thank you for having 
the markup so swiftly on these important measures. I am proud 
to be a cosponsor of many of them. But I am particularly proud 
and pleased to see that the Donald Payne International Food 
Assistance Improvement Act is on the agenda.
    If passed into law, this bill will serve as an appropriate 
legacy for a man that dedicated his congressional career to 
improving the lives of the most vulnerable across this globe. 
As a good friend, as a colleague and as serving on the adjacent 
district, I saw his work for many, many years.
    I would also like to associate myself with some of the 
comments that were made here, especially when it comes to 
Russia and Georgia, and I also like to stand firmly on the 
human rights and targets of those that are continued to be 
neglected. And certainly the Turkey issue with the theological 
school, I am a strong supporter hopefully that Turkey can work 
and open a theological school, which is something that is 
sorely needed.
    So thank you very much.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Meeks of 
New York is recognized.
    Mr. Meeks. Thank you, Madame Chair. First, I want to agree 
with my colleagues that I support just every bill that we are 
marking up this morning, and want to make specific comments, 
first, about the Sergei Magnitsky Rule of Law Accountability 
Act of 2012, H.R. 4405.
    This bill largely addresses a tragedy in Russia and 
Congress' frustration at the inadequacy of the Russian 
Government's response to this affair. But let me be clear, 
however, that we do not intend this legislation to define our 
bilateral relationship. We strive to expand and strengthen our 
partnership with the Russian Federation, and that is the goal 
even of this human rights legislation. We encourage reforms and 
acknowledge accomplishments, their vibrant civil society and 
space for public debate. We do not turn, however, our backs on 
serious shortcomings.
    To the extent that governments fail to punish human rights 
violators, they are complicit. To the extent that governments 
tolerate or perpetuate human rights violations, they invite the 
world's complaint or worse. We in the United States want better 
for the people of Russia. We want better for the Americans in 
Russia. We want better for the Americans doing business in 
Russia. We want honorable partners.
    The people of the United States have a tradition older than 
our Nation of relying on government to protect their liberty 
and their basic rights. Promotion and protection of human and 
political rights is so fundamental to our understanding of the 
responsibility of government that Congress annually looks at 
the executive branch to report on the human rights performance 
of foreign governments. Our compassion and conviction compel us 
to seek universal adherence to shared standards of civility.
    This is far, far from saying that the United States has a 
perfect record of protecting citizens' rights and liberties. 
Sadly, our history documents horrors of African Americans who 
slaved and fought to make this country long before the law 
recognized them as full personhoods, much less their 
citizenship. Similarly, too many chapters of our national 
history were written before women had the right to vote or 
control their own property. Too few chapters tell the story of 
the slaughter of Native Americans and the exploration of their 
lands.
    But here is an important point. The American public demands 
truth-telling. We confront our history, documenting the 
government's role in enslavement, torture, corruption and 
killings. We make public the stories of Abu Ghraib, of 
innocence detained and forgotten in cells of those falsely 
convicted and in prison. We will continue to examine and 
criticize these tragedies and mistakes and will strive to do 
better. If we want our partners to be model citizens of the 
world then we need to do a better job of modeling the behavior.
    What we do today is important, but it is as least as 
important to understand that the type of action we legislate 
today is only one way to inspire change. The flow of people, 
goods and ideas is transformative. Exposure to American books, 
media and fashion influences the way people across this globe 
thinks, dress and behave. American businesses modeling ethical, 
efficient and profitable corporate culture are incubators of 
changing values abroad. Increased trade and business investment 
with Russia will improve the business climate and strengthen 
the rule of law. Engagement is a key to understanding and 
change. If we want to improve the climate for doing business in 
Russia, if we want the world to be safe for whistleblowers, if 
we want to encourage civil society and if we want to fight 
corruption in business, government, education and scientific 
pursuits we need to increase the world's exposure to our best 
business, government, educational and scientific practices. 
This is why we need immediately to authorize PNTR. And let me 
repeat, to improve the rule of law in Russia, to strengthen 
civil society, to create jobs in the United States, we must 
immediately authorize PNTR for Russia.
    So as important as it is to keep malefactors from whatever 
country from our shores, it is equally important to look for 
ways to increase our engagement with Russia. As this 
legislation passes with bipartisan support, I look forward to 
legislation that will facilitate engagement with Russia by 
lifting the trade-restricting Jackson-Vanik Amendment and 
authorizing permanent normal trade relations with Russia, and I 
look forward to bipartisan support. This legislation will put 
Americans on a level playing field with all of the members of 
the WTO.
    And I just want to say again just real quickly that on H.R. 
4141, I just have to mention it is an honor for me to support 
that bill, the International Food Assistance Improvement Act, 
because this bill before us is important for my dear friend and 
the leadership and the vision of the late Donald Payne, who was 
a champion for hunger. H.R. 4141 will improve the nutritional 
quality, the quality control and cost effectiveness of the U.S. 
food assistance, and ultimately it will improve lives, 
particularly the lives of the most vulnerable.
    And I had other statements that I want to submit for the 
record in regards to----
    Chairman Ros-Lehtinen. Without objection.
    Mr. Meeks [continuing]. Turkey and to Georgia. And I yield 
back.
    Chairman Ros-Lehtinen. Thank you so much for a powerful 
statement, Mr. Meeks. Mr. Engel of New York is recognized.
    Mr. Engel. Thank you, Madam Chair. And let me say, I have 
been on this committee for 24 years and this is the first time, 
I think, we have been in this room in this fashion. So there is 
always something new and interesting on the Foreign Affairs 
Committee.
    Thank you, Madam Chair, and thank you, Ranking Member 
Berman, for holding this markup. We are taking up several 
important pieces of legislation today, one of which I want to 
highlight because I have introduced it with my colleague from 
New York, Representative Lowey. This resolution, H. Res. 663, 
urges the International Olympic Committee to schedule a minute 
of silence to commemorate the 40th anniversary of the massacre 
of 11 Israeli athletes in the Summer Olympic Games in Munich, 
Germany, on September 5, 1972. I remember that day. Let us not 
forget what happened on that day.
    In the early morning hours, eight members of a Palestinian 
terrorist group called Black September broke into the Munich 
Olympic Village and entered the building where the Israeli team 
was saying. An athlete and a coach were killed in the dormitory 
while nine others, four athletes, three coaches and two 
referees were taken hostage. Less than 24 hours later, after 
several failed rescue attempts in a gunfight that left a German 
police officer dead, the nine hostages were also killed. The 
massacre of the Munich 11 was a jarring reminder that the 
Olympic Games, long a symbol of international cooperation and 
camaraderie, are not wholly divorced from the hatred and 
intolerance which still exists throughout the world. So I very 
strongly believe that a minute of silence at this year's games 
would be a long overdue symbol that such terrible acts of 
violence will not go unremembered.
    Madam Chair, the Olympic Games are more than just a swim 
meet or a javelin throw. They represent a time when the world 
supposedly comes together in friendship to honor the commitment 
of thousands of athletes to competition in the spirit of sport. 
I know of no better way to honor the participants than to hold 
a minute of silence at the London games in honor of the Munich 
11, so that 40 years after the tragedy the world can say as 
one, we remember. It is really an absolute disgrace that the 
Olympic Committee is refusing to do this. They really ought to 
be ashamed of themselves, and I think that the Congress ought 
to strongly go on record as supporting this.
    I would also like to speak very briefly about a few of the 
other resolutions. First, I strongly support H. Res. 526 
regarding the Republic of Georgia. As a cosponsor of this 
resolution, I believe that Georgia is a democratic and stable 
partner and ally of the United States and that the United 
States should wholeheartedly support Georgia's aspirations for 
NATO membership.
    Secondly, I am glad that the committee is taking up H. Res. 
506, which calls on the Government of Turkey to facilitate the 
reopening of the Theological School of Halki. The continued 
closure of the school has been an ongoing issue of concern for 
me, for the United States, and I am glad that there has been 
some positive gestures lately by the Government of Turkey. Let 
us hope it becomes more than just gestures. I think we have to 
remain focused until the Halki Seminary is reopened.
    And finally, while we are discussing Turkey, I would like 
to inform my colleagues that on Tuesday, Representative 
Bilirakis and I introduced H. Res 676, which expresses deep 
concern about Turkey's efforts to colonize areas of the 
Republic of Cyprus. Not only does this violate the sovereignty 
of the Republic of Cyprus and international law, but by 
relocating hundreds of thousands of non-Cypriot citizens of 
Turkey to Cyprus, Ankara is attempting to change the basic 
character of Cyprus. Cyprus is a country for all Cypriots, 
Greek, Turkish and others, not for colonists from another 
country. So it is time for Congress to tell Turkey to stop, and 
that is why Congressman Bilirakis and I have introduced this 
resolution.
    So thank you again, Madam Chair, for holding this markup, 
and for the opportunity to speak. And I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Engel. 
Thank you for your participation. Mr. Smith of New Jersey is 
recognized for 5 minutes.
    Mr. Smith. Thank you very much, Madam Chair, and thank you 
for bringing forward six totally bipartisan and very important 
measures to the committee and ultimately to the floor. I do 
have a statement on all of them and would, unanimous consent 
that it be----
    Chairman Ros-Lehtinen. Without objection.
    Mr. Smith [continuing]. Made a part of the record. Just 
briefly, we so importantly honor our deceased colleague, Donald 
Payne, and the naming of the legislation after him on food 
security, I think, is so appropriate, and I thank you for 
taking the lead on that. Food security remains an enormous 
problem worldwide and especially in Africa, and Don was such a 
tenacious champion of food security, so it is so appropriate 
that this legislation proceeds as his bill and named after him.
    On Georgia, I strongly support H. Res 526 supporting the 
territory integrity of the Republic of Georgia, while 
encouraging reforms that will move Georgia along the path 
toward democracy. After Russia's 2008 invasion of Georgia, the 
Russian Government recognized the independence of the 
territories it occupied effectively dismembering Georgia. I 
might add that I was in Georgia in August 2008, a couple days 
after the invasion, helping to recover three of my 
constituents, very young girls, who were trapped behind Russian 
lines, so I saw something of the terrible cost of the invasion. 
And my office then was able to work with our embassy to secure 
others who were also in like manner trapped.
    At the same time, the resolution focuses important 
attention on the need for further democratic reforms in 
Georgia. I believe the parliamentary elections scheduled for 
October of this year is a critical moment in the country's 
post-Soviet development. It is essential that this election be, 
and be considered, free and fair not only by OSCE monitors, but 
more importantly by the Georgians themselves. So this is a 
very, very timely resolution.
    On the H. Res. 583, which obviously focuses on Joseph Kony, 
an indicted war criminal, a man who ought to be at the Hague 
facing prosecution, with the estimates are 380,000 thousand 
people have been displaced across the Central African Republic, 
the Democratic Republic of Congo, South Sudan, because of LRA 
attacks. More than two million Ugandans were displaced by this 
awful group before being effectively expelled from that 
country. The LRA is responsible for serious and widespread 
human rights abuses throughout the region including murder, 
mutilation, abduction, sexual enslavement of women and 
children, and forcing children to take part in its incredibly 
vicious attacks.
    I would note parenthetically that in 2006 we had in this 
room, Grace Akello, who testified she was one of those young 
girls who was abducted by the LRA and she was one of the lucky 
ones who made it out, wrote a book and told us about her 
harrowing experiences at the hands of the LRA.
    Again, I want to thank Mr. Bilirakis for his legislation. 
Obviously it is important that this committee and the Congress 
again assert, and assert strongly, support for the 
Patriarchates' efforts to return the theological seminary. So 
on all of these issues, and then I thank you, Madam Chair, for 
this outstanding markup----
    Chairman Ros-Lehtinen. Thank you very much, Mr. Smith. 
Thank you for your statement. Mr. Burton, always saving the 
best for last, is recognized.
    Mr. Burton. That will probably be, because I am going to be 
very brief. I have heard my colleagues' comments. I agree with 
all of them. I have a statement for the record and I would like 
to submit it. And with that I yield back.
    Chairman Ros-Lehtinen. Thank you very much. The Chair 
definitely likes to hear that kind of statement.
    And with all business having concluded, the markup is now 
adjourned. Thank you.
    [Whereupon, at 10:38 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
